No. 20-365
IN THE

Supreme Court of the United States
————
JACK DANIEL’S PROPERTIES, INC.,
v.

Petitioner,

VIP PRODUCTS LLC,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for The Ninth Circuit
————
BRIEF OF AMICI CURIAE
ALCOHOL BEVERAGE INDUSTRY
ASSOCIATIONS SUPPORTING PETITIONER
————
DANIEL P. WEICK
Counsel of Record
THE LAW OFFICE OF
DANIEL P. WEICK
15 William Street #32F
New York, NY 10005
(929) 263-2436
d.p.weick@columbia.edu
Counsel for Amici Curiae
October 19, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
Respondent VIP Products LLC’s business model is
based on marketing and selling dog toys that intentionally use the trademarks and trade dress of wellknown companies, in a way that courts have deemed
likely to confuse consumers about the source of the
toys and to tarnish the reputation of such companies,
including petitioner Jack Daniel’s Properties, Inc. The
questions presented are:
1. Whether a commercial product using humor is
subject to the same likelihood-of-confusion analysis
applicable to other products under the Lanham Act, or
must receive heightened First Amendment protection
from trademark-infringement claims, where the brand
owner must prove that the defendant’s use of the mark
is either “not artistically relevant” or “explicitly misleads consumers.”
2. Whether a commercial product’s use of humor
renders the product “noncommercial” under 15
U.S.C. 1125(c)(3)(C), thus barring as a matter of law
a claim of dilution by tarnishment under the Lanham
Act.

(i)

ii
CORPORATE DISCLOSURE STATEMENT
Amicus American Craft Spirits Association (ACSA)
is a 501(c)(6) industry association. It has no parent
company, and no publicly traded company has an
ownership interest in ACSA.
Amicus American Distilled Spirits Alliance (ADSA)
is a d/b/a of The Presidents’ Forum of the Distilled
Spirits Industry (PFDSI), a Delaware non-profit
corporation, and a federally registered 501(c)(6) industry association. It has no parent company, and no
publicly traded company has an ownership interest in
ADSA or PFDSI.
Amicus The Beer Institute is a 501(c)(6) industry
association. It has no parent company, and no publicly
traded company has an ownership interest in The Beer
Institute.
Amicus The Brewers Association is a 501(c)(6)
industry association. It has no parent company, and
no publicly traded company has an ownership interest
in The Brewers Association.
Amicus Distilled Spirits Council of the United
States (DISCUS) is a 501(c)(6) industry association. It
has no parent company, and no publicly traded
company has an ownership interest in DISCUS.
Amicus Wine Institute is a 501(c)(6) industry trade
association. Pursuant to Supreme Court Rule 29.6,
Wine Institute discloses the following. There is no
parent or publicly held company owning 10% or more
of Wine Institute’s stock.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

CORPORATE DISCLOSURE STATEMENT .....

ii

TABLE OF AUTHORITIES ................................

iv

INTEREST OF AMICI CURIAE ........................

1

SUMMARY OF ARGUMENT .............................

3

ARGUMENT ........................................................

6

I. THE ALCOHOL BEVERAGE INDUSTRY, IN COOPERATION WITH THE
FEDERAL TRADE COMMISSION, HAS
MADE SUBSTANTIAL INVESTMENTS
IN RE-SPONSIBLE ADVERTISING OF
ALCOHOL BEVERAGES.........................

6

II. THE EFFICACY OF RESPONSIBLE
ADVERTISING EFFORTS DEPENDS
ON STRONG TRADEMARK PROTECTIONS .......................................................

9

III. THE DECISION BELOW INFLICTS
ENTIRELY UNJUSTIFIED HARM
TO INDUSTRY SELF-REGULATION
EFFORTS ..................................................

13

CONCLUSION ....................................................

18

(iii)

iv
TABLE OF AUTHORITIES
CASES

Page(s)

Anheuser-Busch, Inc. v. Balducci Pubs.,
28 F.3d 769 (8th Cir. 1994) .......................

15

Anheuser-Busch, Inc. v. VIP Prods., LLC,
666 F. Supp. 2d 974 (E.D. Mo. 2008) .......

17

Campbell v. Acuff-Rose Music, Inc.,
510 U.S. 569 (1994) ...................................

16

Cliffs Notes, Inc. v. Bantam Doubleday
Dell Pub. Grp., Inc.,
886 F.2d 490 (2d Cir. 1989) ......................

15

In re R.M.J.,
455 U.S. 191 (1982) ...................................

16

CONSTITUTION
U.S. Const. amend. I .......................... 7, 14, 15, 16
OTHER AUTHORITIES
ACSA, Advertising Complaint Review
Process (2017), available at https://
bit.ly/30X1ilF ............................................

10

ACSA, Code of Advertising Practice of the
American Craft Spirits Association (2017),
available at https://bit.ly/36Vh2cK ............ 3, 8, 9
ADSA, Statement of Responsible Practices
(2020), https://bit.ly/3jZhcDz ....................

3, 9

The Beer Institute, Advertising/Marketing
Code and Buying Guidelines (2018),
available at https://bit.ly/2EZd33g ......... 3, 9, 10

v
TABLE OF AUTHORITIES—Continued
Page(s)
The Beer Institute, “Code Compliance
Review Board,” https://bit.ly/3nT91ei
(last accessed Oct. 10, 2020) .....................

10

The Brewers Association, “Advertising and
Marketing Code Complaint Process,”
https://bit.ly/33T9Dca (last accessed Oct.
10, 2020) ....................................................

10

The Brewers Association, “Advertising
Complaint Review Process,” https://bit.ly/
2GCLiOt (last accessed Oct. 10, 2020) .....

10

The Brewers Association, Brewers Association Marketing and Advertising Code
(2020), available at https://bit.ly/2GC
LiOt ........................................................... 3, 10
Digital Media Guidelines (April 2017),
available at https://bit.ly/34uSZOZ ..........

8

DISCUS, Code of Responsible Practices for
Beverage Alcohol Advertising and Marketing (2020), available at https://bit.ly/
3iskWf9.................................................... 3, 9, 10
Digital Marketing Guidelines (2020),
available at https://bit.ly/3iskWf9 ............

8

DISCUS, “DISCUS Code Review Board
Decisions,” https://bit.ly/30Zx959 (last
accessed Oct. 10, 2020) .............................

10

FTC, “Alcohol Advertising,” https://www.
consumer.ftc.gov/articles/0391-alcoholadvertising (last accessed Oct. 4, 2020) ...

9

vi
TABLE OF AUTHORITIES—Continued
Page(s)
FTC, Alcohol Marketing and Advertising: A
Report to Congress (2003), available at
https://bit.ly/3jq0Pjb .................................

8

FTC, Self-Regulation in the Alcohol
Industry: A Review of Industry Efforts
to Avoid Promoting Alcohol to Underage
Consumers (1999), available at https://
bit.ly/2SqaNVP .........................................

6, 7

FTC, Self-Regulation in the Alcohol
Industry: Report of the Federal Trade
Commission (2008), available at https://
bit.ly/3jvHhdj ............................................

8

FTC, Self-Regulation in the Alcohol
Industry: Report of the Federal Trade
Commission (2014), available at https://
bit.ly/3iu5ijD .............................................

4, 8

H.R. Conf. Rep. No. 105-405 (1997), 143
Cong. Rec. H10860 (November 13, 1997)

6

Wine Institute, Code of Advertising
Standards (2014), available at https://
bit.ly/33rkjOW........................................... 3, 10
Wine Institute, Complaint Review Process
(2005), available at https://bit.ly/33rkj
OW .............................................................

10

Wine Institute, Digital Marketing Guidelines (2014), available at https://bit.ly/
33rkjOW ....................................................

8

Wine Institute, “Wine Institute’s Code
of Advertising Standards,” https://bit.ly/
3lBRTrF (last accessed Oct. 10, 2020) ..... 10-11

INTEREST OF AMICI CURIAE1
Amici are six industry associations representing
different memberships of producers and importers of
alcohol beverages.
The American Craft Spirits Association (ACSA) is
the only national non-profit trade group led by and for
the over 2100 craft distilleries operating in the United
States. With over 500 members in each of the fifty
states, ACSA is loyal to its mission to elevate and
advocate for the community of craft spirits producers.
The American Distilled Spirits Alliance (ADSA) is a
non-profit trade association comprised of 27 member
companies, with common interests in manufacturing,
importing, and marketing of distilled spirits in the
United States. ADSA member companies represent
over 60% of all distilled spirits sales in the United
States.
The Beer Institute is the not-for-profit trade association representing America’s brewers, beer importers, and suppliers to the beer industry. The Beer
Institute’s members today supply 85% of the volume of
beer sold in the United States. The American beer
industry supports more than 2.1 million jobs throughout the beer supply chain—ranging from farmers and
can and bottle manufacturers to brewery workers,
truck drivers, and waiters and waitresses.

1

No counsel for any party to this case authored this brief in
whole or in part, and no person other than amici made a financial
contribution for the preparation or submission of this brief.
Petitioner has filed blanket consent to the filing of amicus briefs,
and Respondent was provided timely notice and has provided
written consent to the filing of this brief.

2
The Brewers Association is the not-for-profit trade
association dedicated to small and independent
American brewers, their beers and the community of
brewing enthusiasts. The Brewers Association today
has over 5,300 U.S. brewery members, 2,500 allied
trade and associate members, and 40,000 members in
its affiliate, the American Homebrewers Association.
The Distilled Spirits Council of the United States
(DISCUS) is the principal trade association for the
leading producers and importers of distilled spirits
products sold in the United States. DISCUS members
produce or import a majority of the distilled spirits
sold in the United States.
Wine Institute is the public policy advocacy association representing over a thousand California wineries
and affiliated businesses responsible for 80 percent of
the nation’s wine production and more than 90 percent
of U.S. wine exports.
The certiorari petition and non-industry amici provide full arguments on the facts of this case and the
significant commercial consequences for trademark
holders from the decision below. See Pet. 26-30
(explaining consequences of the decision below for
trademark holders); id. at 30-37 (explaining the
significant errors in the decision below). Amici alcohol
beverage industry associations wish to highlight
the consequences of the decision below for an issue
in which Congress, the Federal Trade Commission
(FTC), and the alcohol beverage industry have invested
substantial resources: responsible advertising of
alcohol beverages.
The alcohol beverage industry recognizes its duty to
promote responsible use of alcohol beverage products.
Operating under advertising codes promulgated by

3
ACSA, ADSA, The Beer Institute, The Brewers Association, DISCUS, and Wine Institute, the industry has
an important system of self-regulation to prevent
improper advertisements of alcohol beverages.2 Amici
and their members, working cooperatively with the
FTC, have made great strides over the past 20 years
in assuring that advertising of alcohol beverages
happens in a responsible manner.
The novel exceptions to trademark liability announced by the decision below, absent this Court’s
review, will seriously undermine amici and their
members’ efforts at industry self-regulation by permitting irresponsible uses of recognizable alcohol beverage trademarks and trade dress so long as the
infringing uses are arguably humorous. Amici therefore file this brief to urge this Court to review this
nationally important case.
SUMMARY OF ARGUMENT
The alcohol beverage industry has invested extensive resources in combatting irresponsible alcohol use.
This work includes industry self-regulation of alcohol
beverage advertising, which strictly limits the use of
trademarks associated with alcohol beverage brands
to ensure that all advertising using those marks
2

See ACSA, Code of Advertising Practice of the American Craft
Spirits Association (2017), https://bit.ly/36Vh2cK (ACSA Code);
ADSA, Statement of Responsible Practices (2020), https://
bit.ly/3jZhcDz (ADSA Statement); The Beer Institute, Advertising/
Marketing Code and Buying Guidelines (2018), https://bit.ly/
2EZd33g (BI Code); The Brewers Association, Brewers Association
Marketing and Advertising Code (2020), https://bit.ly/2GCLiOt (BA
Code); DISCUS, Code of Responsible Practices for Beverage
Alcohol Advertising and Marketing (2020), https://bit.ly/3iskWf9
(DISCUS Code); Wine Institute, Code of Advertising Standards
(2014), https://bit.ly/33rkjOW (WI Code).

4
promotes responsible adult consumption and does not
improperly appeal to minors. The codes promulgated
by the main industry associations preclude industry
participants from advertising alcohol beverage products in ways that appeal to minors, promote underage
drinking, encourage excessive or irresponsible consumption, or depict illegal activity like drunk driving.
If members violate these codes and do not take responsive action to remove or amend the advertisement(s)
in question, they face expulsion from the industry
associations.
This industry self-regulation polices alcohol beverage promotion and advertising without costly government intervention. As the FTC has noted, selfregulation “conserves limited government resources
and is more prompt and flexible than government
regulation, given the substantial time required to
complete an investigation or adopt and enforce a regulation.” FTC, Self-Regulation in the Alcohol Industry:
Report of the Federal Trade Commission 34 (2014),
available at https://bit.ly/3iu5ijD (2014 FTC Rep.).
Industry participants must have control over their
trademarks for these self-regulatory efforts to succeed.
If infringing uses of famous marks associated with
alcohol beverages gain broad exemptions from the
Lanham Act, then rampant infringement will make
leading producers’ social responsibility meaningless
by allowing parties outside of the industry’s selfregulatory system to use trademarks and trade dress
associated with the industry to promote irresponsible
drinking. While industry members cannot police all
third-party promotions of irresponsible alcohol use,
infringements implying that popular brands support
such activities harm the industry’s efforts by associat-

5
ing its most well-known names with problematic
drinking.
The decision below permits exactly the sort of
infringements that will undermine industry selfregulation. Despite the District Court’s findings at
trial that Respondent’s “Bad Spaniel’s” dog toys could
tarnish Jack Daniel’s brand, including by suggesting
associations between whiskey and children (Pet. App.
41a-42a), the Ninth Circuit held that adding scatological humor to an infringing consumer good entitles the
good to broad protection from infringement liability
and renders the good “noncommercial” for trademark
dilution purposes. These holdings open the door to any
number of allegedly humorous infringements of
famous trademarks associated with alcohol beverages.
The decision below has no limiting principle that
would prevent the extension of its reasoning to jokes
about underage drinking, excessive consumption, or
drunk driving. From children’s toys to drinking game
kits to automobile accessories, anyone making an
infringing product need only claim some element of
juvenile humor to gain sweeping immunity from
trademark infringement or dilution liability.
This humor-based exemption from ordinary trademark law, which contradicts decades of trademark law
in other Circuits as well as this Court’s intellectual
property jurisprudence, threatens significant social
harm that goes well beyond the commercial injuries to
trademark owners. Amici therefore urge this Court
to grant the petition for certiorari and reverse the
judgment below.

6
ARGUMENT
I. THE ALCOHOL BEVERAGE INDUSTRY,
IN COOPERATION WITH THE FEDERAL
TRADE COMMISSION, HAS MADE SUBSTANTIAL INVESTMENTS IN RESPONSIBLE ADVERTISING OF ALCOHOL BEVERAGES.
1. Recognizing its responsibility to adhere to
appropriate advertising standards, the alcohol beverage industry has worked with the FTC since the late
1990s to improve standards for advertisements of
alcohol beverages. In the Conference Report for the
FTC’s Fiscal Year 1998 appropriation bill, conferees
from the House of Representatives’ and the Senate’s
Committees on Appropriations raised “concerns about
the impact of alcohol advertising on underage drinking” and called for the FTC to “investigate when
problematic practices are discovered, encourage the
development of effective voluntary advertising codes,
and report their findings back to the Committees on
Appropriations.” H.R. Conf. Rep. No. 105-405 (1997),
143 Cong. Rec. H10860 (November 13, 1997) (quoted
in FTC, Self-Regulation in the Alcohol Industry: A
Review of Industry Efforts to Avoid Promoting Alcohol
to Underage Consumers 4 (1999), available at
https://bit.ly/2SqaNVP (1999 FTC Rep.)).
In response, the FTC issued a report endorsing
industry self-regulation as the appropriate strategy
for addressing concerns about advertisements for
alcohol beverages. It found that industry self-regulation efforts would provide an efficient, effective, and
less complicated solution to the issues raised, noting:
Self-regulation is a realistic, responsive and
responsible approach to many of the issues

7
raised by underage drinking. It can deal
quickly and flexibly with a wide range of
advertising issues and brings the accumulated experience and judgment of an industry
to bear without the rigidity of government
regulation. The Commission regards selfregulation as particularly suitable in this
area, where government restriction — especially if it involves partial or total advertising
bans — raises First Amendment issues.
1999 FTC Rep. at 2.
While endorsing the concept of self-regulation
broadly, the FTC had concerns regarding the efficacy
of then-existing industry programs. The Commission
“conclude[d] that for the most part, members of the
industry comply with the current standards set by the
voluntary advertising codes, which prohibit blatant
appeals to young audiences and advertising in venues
where most of the audience is under the legal drinking
age.” Id. at 3. At the same time, the Commission found
that “improvements are needed both in code standards
and implementation to ensure that the goals of the
industry codes are met.” Ibid. These included adoption
of third-party review of complaints concerning
violations of industry codes, increasing the standards
for ad placement, and implementing best practices
“that reduce the likelihood that [alcohol beverage]
advertising and marketing will reach — and appeal
to — underage consumers.” Ibid.
2. The alcohol beverage industry, working through
its main industry associations, listened to these
recommendations. In particular, the Beer Institute,
DISCUS, and Wine Institute, working cooperatively
with the FTC, reformed existing codes to make them
even more effective. They raised the standards for ad

8
placement, requiring that at least 70% of the target
audience for any forum where alcohol beverage
advertising appeared consist of adults over 21 yearsold,3 an increase from the prior standard of 50%. See
FTC, Alcohol Marketing and Advertising: A Report to
Congress i-ii (2003), available at https://bit.ly/3jq0Pjb.
This helps ensure that alcohol is not improperly
marketed to underage individuals. The industry associations also developed external review boards to
resolve claims of potential advertising code violations.
See FTC, Self-Regulation in the Alcohol Industry:
Report of the Federal Trade Commission ii (2008),
available at https://bit.ly/3jvHhdj. Additionally, the
Beer Institute and DISCUS have implemented media
buying guidelines that help guide members in responsible use of their advertising expenditures. See 2014
FTC Rep. at 12. The associations have also adopted
guidelines specific to digital media advertising
activities. Id. at 15-16.4
By 2014, the FTC found that “[s]ince 1999, the
alcohol industry has substantially improved in selfregulation[.]” 2014 FTC Rep. at 34-35. In particular,
more than 90% of ad placements and over 97% of
ad impressions (that is, individual ad views) met the
heightened requirements for target audience age. Id.
at i. Industry associations and their members continue
to cooperate with the FTC on implementing standards
for responsible advertising within the industry, and
the FTC refers consumers to the Beer Institute,
3 Each code presently requires that advertisements be placed
only where 71.6% of the audience is of legal drinking age.
4 See also ACSA Code, “Responsible Content” ¶ 24; BA Code,
Digital Media Guidelines (April 2017), https://bit.ly/34uSZOZ;
DISCUS Code, Digital Marketing Guidelines (2020), https://bit.ly/
3iskWf9; Wine Institute, Digital Marketing Guidelines (2014),
https://bit.ly/33rkjOW.

9
DISCUS, and Wine Institute for handling complaints
about potentially inappropriate alcohol beverage
advertisements. FTC, “Alcohol Advertising,” https://
www.consumer.ftc.gov/articles/0391-alcoholadvertising (last accessed Oct. 4, 2020).
II. THE EFFICACY OF RESPONSIBLE
ADVERTISING EFFORTS DEPENDS ON
STRONG TRADEMARK PROTECTIONS.
1. Each industry code restricts advertising practices
in ways that implicate the use of industry participants’
trademarks. For example, the Beer Institute directs
that “[n]o beer identification, including logos, trademarks, or names should be used or licensed for use on
clothing, toys, games or game equipment, or other
materials intended for use primarily by persons below
the legal drinking age.” BI Code ¶ 3(f). DISCUS cites
the use of “brand identification—including logos,
trademarks, or names—on clothing, toys, games, game
equipment, or other items intended for use primarily
by persons below the legal purchase age” as an
example of conduct that would violate its Code.
DISCUS Code at 6. More generally, each of the
industry codes contains provisions mandating that
alcohol beverage advertisements refrain from promoting underage use, excessive use, drunk driving, or
other irresponsible uses, all of which presumes that
industry members have control over the use of their
trademarks and trade dress.5

5

See ACSA Code “Responsible Content” ¶¶ 2-6, 10, & 16 (prohibiting advertising to minors and advertising portraying excessive consumption or drunk driving); ADSA Statement (member
commitment to marketing products for responsible consumption
and to direct marketing to adults of legal drinking age); BI Code
¶¶ 2 & 3 (prohibiting portrayal of excessive drinking or drunk

10
Review boards for the associations enforce these
restrictions,6 and they publish their decisions on their
associations’ websites.7 These boards have success-

driving in advertising and advertising that appeals primarily to
under-age consumers); BA Code ¶ (1)(a)-(h) (prohibiting beer
marketing that, among other things, condones driving and
drinking, depicts excessive consumption, portrays illegal activity,
or promotes underage drinking); DISCUS Code at 5 (requiring
that advertisements primarily appeal to adults of legal age,
promote responsible drinking, and not portray drunk driving); WI
Code ¶¶ 1, 3, & 4 (prohibiting advertising content that promotes
excessive drinking, appeals to under-age consumers, or connects
drinking wine to the use of vehicles).
6

See ACSA, Advertising Complaint Review Process (2017)
(Advertising Review Panel to adjudicate advertising complaints),
https://bit.ly/30X1ilF; BI Code at 9 (Code Compliance Review
Board “composed of individuals with a variety of experience who
are independent of the brewing industry,” and brewers found to
have violated the code are “expected” to “promptly revise” or
“withdraw” any offending “advertising or marketing materials”);
The Brewers Association, “Advertising Complaint Review Process,” https://bit.ly/2GCLiOt (last accessed Oct. 10, 2020) (standing panel of three experts otherwise unaffiliated with the
Association to review Advertising and Marketing Code Complaints); DISCUS Code at 8-9 (Code Review Board comprised of
members appointed by DISCUS’s Board of Directors, which will
“urge[] the advertiser to revise or withdraw” any advertisement
that violates the DISCUS Code); Wine Institute, Complaint
Review Process (2005), https://bit.ly/33rkjOW (Internal Review
Committee that initially resolves complaints about wine advertisements, with an appeal available to an Independent Third
Party Reviewer).
7

See The Beer Institute, “Code Compliance Review Board,”
https://bit.ly/3nT91ei (last accessed Oct. 10, 2020); The Brewers
Association, “Advertising and Marketing Code Complaint
Process,” https://bit.ly/33T9Dca (last accessed Oct. 10, 2020);
DISCUS, “DISCUS Code Review Board Decisions,” https://bit.ly/
30Zx959 (last accessed Oct. 10, 2020); Wine Institute, “Wine

11
fully promoted compliance with the industry codes
within the industry, and could even expel members
from the industry associations in serious cases. But
they have no ability to address the use of industry
participants’ trademarks and trade dress in irresponsible ways by individuals and companies outside
of the alcohol beverage industry, and non-members
have no incentives to abide by association standards.
Given the limited legal authority of the review
boards, the system of industry self-regulation on
advertising can only succeed where industry members
have effective control over the use of their trademarks
and trade dress. Because the system lacks the
enforcement mechanisms that governmental regulation carries, it relies on industry members’ desire to
maintain their reputations within the industry and
society at large to drive adherence to responsible
advertising standards and compliance with external
review board decisions. If members lose control of
their trademarks and non-industry participants can
infringe those marks to promote irresponsible drinking, then that loss of control compromises the efficacy
of the self-regulation system. The industry has no way
to police such misconduct other than by trademark
enforcement, so the success of the industry’s selfregulation efforts depends on legal protection of members’ trademark rights.
2. Importantly, moreover, even seemingly innocuous knock-offs can undermine the industry’s credibility when they confuse consumers as to what
messaging and products well-known alcohol beverage
brands endorse. In the bench trial below, the District
Institute’s Code of Advertising Standards,” https://bit.ly/3lBRTrF
(last accessed Oct. 10, 2020).

12
Court credited expert testimony on tarnishment that
showed Respondent’s “Bad Spaniels” dog toy inflicted
significant reputational harm to the Jack Daniel’s
brand. Pet. App. 35a-42a. This included perceptions
associated with underage drinking, where the District
Court concluded “that dilution by tarnishment will
occur due to Jack Daniel’s trademarks and trade dress
being associated with toys, particularly the kind of
toys that might appeal to children; Jack Daniel’s is
in the whiskey business and its reputation will be
harmed due to the negative mental association of
evoking whiskey with children, something Jack
Daniel’s has never done.” Id. at 41a-42a. In its infringement findings, the District Court further found
that roughly 29% of surveyed consumers would likely
be confused as to whether Jack Daniel’s endorses
Respondent’s “Bad Spaniels” dog toy. Pet. App. 47a48a.
This widespread confusion illustrates the importance
of industry members maintaining control over the use
of their trademarks. The dissonance between the
sophisticated, adult image that a brand like Jack
Daniel’s invests in and the childishness of the infringing use here not only harms Jack Daniel’s commercial
interests, but tarnishes a prominent whiskey brand
with the exact associations that the entire industry
has worked hard to eliminate from its advertising.
This in turn undermines the industry’s self-regulation
project by creating a public perception that the
industry accepts associations between its products and
children. And if a line of dog toys can create that
perception, one can only imagine what children’s toys,
apparel, drinking game sets, or other infringing
products could do. The facts of this case thus serve
to highlight the overwhelming importance of strong

13
trademark protections for the success of the alcohol
beverage industry’s self-regulation efforts.
III. THE DECISION BELOW INFLICTS
ENTIRELY UNJUSTIFIED HARM TO
INDUSTRY SELF-REGULATION EFFORTS.
1. The decision below deals a serious blow to industry self-regulation and the well-established rights of
trademark owners. As to trademark infringement, the
Ninth Circuit’s requirement that the trademark owner
prove that a potentially humorous use of its marks
is “not artistically relevant to the underlying work”
or “explicitly misleads consumers as to the source
or content of the work” largely immunizes parties
marketing infringing goods so long as they can identify
a humorous element to the goods. Pet. App. 10a (citation omitted). And by holding that use of a mark for
ordinary consumer goods becomes “noncommercial”
when the use has an element of humor, the Ninth
Circuit created a gaping hole in protection from
trademark dilution. Pet. App. 13a.
These amorphous standards threaten to gut trademark protections. Some might see humor in the shear
audacity of a knock-off product, and an infringer can
point to the irresponsibility of its infringing use as
evidence of irony. This means that nearly all infringing uses will have to be scrutinized for potential
comedic value. Trademark litigation in the Ninth
Circuit will devolve into lawyers and judges haggling
over what does and does not constitute humor, an
exercise most would agree lies well outside of the legal
system’s core institutional competencies.
2. The Ninth Circuit’s holdings inflict massive
commercial harm to trademark owners generally, and
they will have an especially pernicious impact on the

14
alcohol beverage industry. Jokes about irresponsible
drinking, such as losing time to blackouts or using
alcohol as a substitute for mental health services, are,
unfortunately, ubiquitous. Despite the industry’s work
to promote a more sophisticated image and encourage
responsible consumption, some people will inevitably
find humor in alcohol abuse and misuse.
Under the Ninth Circuit’s ruling, industry members
face significant loss of control over the use of their
trademarks. By depriving the holders of famous
trademarks of the ability to police infringing but
allegedly humorous uses of their marks, the decision
below opens the door to the use of such marks in, for
example, a t-shirt featuring a famous tequila brand in
a joke about blacking out or a bumper sticker using a
well-known beer brand to announce the driver’s skill
at drunk driving, provided that the infringer can claim
that the use of the marks furthers the humor of
the products. By adding protections for humorous
infringements that neither the Lanham Act nor the
First Amendment require, the Ninth Circuit has
deprived trademark holders in the alcohol beverage
industry of important tools for policing irresponsible
uses of their trademarks.
Notably, the same harms could arise in other
industries with significant advertising sensitivities.
From children’s toys incorporating tobacco company
logos to pill boxes promoting misuse of branded pharmaceutical products, it does not take much imagination to see how the Ninth Circuit’s humor exception
to otherwise applicable trademark law threatens to
permit infringers to associate well-known brands with
illegal or irresponsible behavior. This issue goes wellbeyond the alcohol beverage industry to implicate any

15
industry where participants must balance the use of
humor in advertising with social responsibility.
3. Other Circuits recognize that a case-by-case
analysis focused on likelihood of confusion, rather
than a per se shielding of potentially humorous
infringements, strikes the needed balance between the
interests of trademark owners and the First Amendment. As the Eighth Circuit, quoting the Second
Circuit, has summarized:
There is no simple, mechanical rule by which
courts can determine when a potentially confusing parody falls within the First Amendment’s protective reach. Thus, “in deciding
the reach of the Lanham Act in any case
where an expressive work is alleged to
infringe a trademark, it is appropriate to
weigh the public interest in free expression
against the public interest in avoiding consumer confusion.” [] “This approach takes
into account the ultimate test in trademark
law, namely, the likelihood of confusion as to
the source of the goods in question.”
Anheuser-Busch, Inc. v. Balducci Pubs., 28 F.3d 769,
776 (8th Cir. 1994) (quoting Cliffs Notes, Inc. v.
Bantam Doubleday Dell Pub. Grp., Inc., 886 F.2d 490,
494-95 (2d Cir. 1989)) (internal citation omitted).
This Court has adopted a similar case-by-case
approach to parodies in the copyright context. Rejecting the claim that parodies always constitute fair use,
the Court instead held:
The fact that parody can claim legitimacy for
some appropriation does not, of course, tell
either parodist or judge much about where to
draw the line. Like a book review quoting the

16
copyrighted material criticized, parody may
or may not be fair use, and petitioners’ suggestion that any parodic use is presumptively
fair has no more justification in law or fact
than the equally hopeful claim that any use
for news reporting should be presumed fair[.]
The Act has no hint of an evidentiary preference for parodists over their victims, and no
workable presumption for parody could take
account of the fact that parody often shades
into satire when society is lampooned through
its creative artifacts, or that a work may
contain both parodic and nonparodic elements. Accordingly, parody, like any other
use, has to work its way through the relevant
factors, and be judged case by case, in light of
the ends of the copyright law.
Campbell v. Acuff-Rose Music, Inc., 510 U.S. 569, 581
(1994) (citation omitted).
This approach makes sense. In some uses, like a
short clip in a film, the association between the work
and the trademark-protected product lines may be so
attenuated that the alleged infringement causes little
to no likelihood of confusion. In such circumstances,
free-expression concerns become paramount. But
where, as here, substantial evidence shows that consumers actually thought the infringing good came
from a trademark owner, the owner’s interests in
preventing that confusion properly outweighs any
expression claims by the infringer. See Pet. App. 47a48a (District Court’s factual findings of consumer
confusion). See also In re R.M.J., 455 U.S. 191, 203
(1982) (“Truthful advertising related to lawful activities is entitled to the protections of the First Amendment. But when the particular content or method of

17
the advertising suggests that it is inherently misleading or when experience has proved that in fact such
advertising is subject to abuse, the States may impose
appropriate restrictions. Misleading advertising may
be prohibited entirely.”).
4. The Ninth Circuit’s decision will have a sweeping
impact given that it covers states accounting for nearly
20% of the U.S. population, including the home states
of many producers of alcohol beverages. Moreover, the
gap between the Ninth Circuit’s per se protection of
potentially humorous infringements and the case-bycase approach of other circuits will inevitably lead to
forum shopping. Indeed, Respondent appears to have
adopted an approach of filing pre-emptive declaratory
judgment actions in Arizona because it lost on almost
identical facts 12 years ago in Missouri. See Pet. 28-29
(collecting actions filed by Respondent since 2009). See
also Anheuser-Busch, Inc. v. VIP Prods., LLC, 666 F.
Supp. 2d 974, 986 (E.D. Mo. 2008) (granting preliminary injunction against Respondent’s “Buttwiper” dog
toy as infringing BUDWEISER mark and trade dress,
“find[ing] that VIP’s parody argument does not defeat
the likelihood of confusion established by Plaintiff.”).
This incentive to forum shop will lead infringers to
rush to Ninth Circuit forums with declaratory judgment actions to avoid accountability for their infringements. While venue and transfer provisions may provide some relief in egregious cases, not every forumshopped case will meet the standard for dismissal or
transfer on those bases.
The decision below thus creates a legally unjustified
problem of national scope for the entire alcohol beverage industry and its efforts to ensure that trademarks
associated with the industry do not appear in
irresponsible advertisements or consumer products.

18
This Court should therefore grant the petition for
certiorari, reverse the decision below, and clarify that
claims of humor do not immunize flagrant violations
of the Lanham Act.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
DANIEL P. WEICK
Counsel of Record
THE LAW OFFICE OF
DANIEL P. WEICK
15 William Street #32F
New York, NY 10005
(929) 263-2436
d.p.weick@columbia.edu
Counsel for Amici Curiae
October 19, 2020

